APPENDIX INDEX
A-l

December 18, 2020-Federal Circuit 2021-1026
ORDER (SE-0731-01-0261-L-3)

A-2

A-2

February 5, 2021- Federal Circuit 2021-1026 Rehearing,
Rehearing En Banc ORDER (SE-0731-01-0261-L-3)

A-5

A-3

November 3, 2020-Fed. Circuit Show Cause ORDER

A-7

B-l

May 8, 2020-MSPB Western regional Office Letter

A-9

B-2

September 27, 2004-MSPB SE-0731-01-0261-I-2 PFR ORDER
97 M.S.P.R. 366

A-10

B-3

April 22, 2002-Initial Decision, SE-0731-01-0261-I-2 ID

A-23

C-l

May 25, 2011-Aaron Eppy, Free of Information Act Request

A-27

December 27, 2004-Investigative Record Amend

A-30

December 27, 2004-Request for Suitability Determination

A-31

VACATING OPM’s May 16, 2001, Decision (A-35)

C-2

December 27, 2004-DO NOT RELEASE OUTSIDE OF OPM

A-32

May 25, 2011-OPM to USDOL Free of Information Act Request

A-33

August 10, 2011-USDOL Documents

A-34

December 27, 2004-Investigative Record Amend

A-35

December 27, 2004-Request for Suitability Determination

A-36

VACATING OPM’s May 16, 2001, Decision (A-35)

D-l

December 27, 2004-DO NOT RELEASE OUTSIDE OF OPM

A-37

May 16, 2001-Request for Suitability Determination

A-38

VACATED by Kimberly Truckley on December 27, 2004
D-2

May 16, 2001-OPM Suitability Determination Letter

A-39

E

Constitution, Statutes, Regulations

A-42

A-2

APPENDIX A-1
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
HENRY E. GOSSAGE, Petitioner
v.
OFFICE OF PERSONNEL MANAGEMENT, Respondent

2021-1026
Petition for review of the Merit Systems Protection Board
in No. SE-0731-01-0261-L-3.

PER CURIAM.
ORDER
Having considered the parties’ responses to the court’s November 3, 2020
order to show cause, we dismiss.
By way of background, Henry E. Gossage previously filed an appeal at the
Merit Systems Protection Board challenging the Office of Personnel Management
(OPM)’s decision disqualifying him from a position with the Occupational Safety
and Health Administration and disbarring him from federal government
employment. While those proceedings were pending, OPM withdrew its disbarment
but sustained OSHA’s request to disqualify Mr. Gossage. After additional
proceedings, the Board issued a final decision in March 2009 sustaining that

A-3

determination. Since then, Mr. Gossage has made several unsuccessful attempts to
reopen that Board decision.
On September 9, 2020, Mr. Gossage filed a petition for review at this court,
which identified a May 8, 2020 letter from the Board’s regional office informing him
that his request to reopen a suitability appeal was being forwarded to the Office of
the Clerk of the Board for consideration. The Clerk of the Board informs this court
that no further action by the Board was taken on that repetitive request.
Mr.Gossage’s response to this court’s show cause order further suggests that he may
also be attempting to seek this court’s review of a December 27, 2004 notation on an
OPM form stating that Mr. Gossage’s “[eligibility [was] reinstated during MSPB
appeal.” Pet’r’s Resp. at Ex. B.
We agree with OPM that Mr. Gossage has not shown that this court has
jurisdiction over his petition. To begin, the May 2020 letter identified in the petition
is merely an administrative response to Mr. Gossage’s submission forwarding the
letter to the Board. It is not “a final order or decision” of the Board that is subject to
our review under 28 U.S.C. § 1295(a)(9). See McCarthy v. Merit Sys. Prot. Bd., 809
F.3d 1365, 1370 (Fed. Cir. 2016). As to OPM’s December 2004 notation, Mr. Gossage
insists that “[n]o decision on the MERITS from OPM’s December 27, 2004 New and
Final determination has been adjudicated by the MSPB and Federal Circuit.” Pet’r’s
Resp. at 3. However, even if this were true and not subject to the finality of the
March 2009 decision, we would still lack jurisdiction because we have no authority
to directly review OPM decisions. See In re McAfee, 65 F. App’x 292 (Fed. Cir. 2003).

A-4

Accordingly,
IT IS ORDERED THAT:
(1) The petition is dismissed.
(2) Each side shall bear its own costs.
(3) All other pending motions are denied.
December 18, 2020

Clerk of Court
* Circuit Judge Hughes did not participate.

A-5

APPENDIX A-2
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
HENRY E. GOSSAGE, Petitioner
v.
OFFICE OF PERSONNEL MANAGEMENT, Respondent
2021-1026

Petition for review of the Merit Systems Protection Board
in No. SE-0731-01-0261-L-3.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
and STOLL, Circuit Judges*
PER CURIAM.
ORDER
Henry E. Gossage filed a combined petition for panel rehearing and rehearing
en banc. The petition was referred to the panel that issued the order, and thereafter
the petition or rehearing en banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,

!

A-6

IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on February 12, 2021.

February 5, 2021
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
* Circuit Judge Hughes did not participate.

i

A-7

APPENDIX A-3
NOTE: This order is nonprecedential.

United States Court of Appeals for the Federal Circuit
HENRY E. GOSSAGE,
Petitioner
v.
OFFICE OF PERSONNEL MANAGEMENT,
Respondent
2021-1026
Petition for review of the Merit Systems Protection
Board in No. SE-0731-01-0261-L-3.
PER CURIAM.
ORDER
The court considers its jurisdiction over this recently docketed petition for
review.
On September 9, 2020, the court received Henry E. Gossage’s petition for
review identifying a May 8, 2020 letter from the Merit Systems Protection Board’s
regional office in docket number SE-0731-01-0261-L-3, explaining that his request
to reopen a suitability appeal was being forwarded to the Office of the Clerk of the
Board for consideration.
It does not appear that the court has jurisdiction over this matter. This
court’s jurisdiction is limited to final orders or decisions of the Board, see 28 U.S.C. §
1295(a)(9); see also Weed v. Soc. Sec. Admin., 571 F.3d 1359, 1361 (Fed. Cir. 2009),

A-8

and the Board’s letter does not appear to be a final decision in this matter.
Moreover, in order to be timely, a petition for review must be received by the court
within the filing deadline. Pinat v. Off. of Pers. Mgmt., 931 F.2d 1544, 1546 (Fed.
Cir. 1991) (explaining that petition is filed when received by this court); see also
Fed. R. App. P. 25(a)(2)(A). The time for fifing a petition from a Board decision or
order is governed by 5 U.S.C. § 7703(b)(1), which provides, in relevant part, that
“any petition for review shall be filed within 60 days after the Board issues notice of
the final order or decision of the Board.” 5 U.S.C. § 7703(b)(1)(A). Thus, even if the
Board’s May 8, 2020 letter was a final decision, Mr. Gossage’s petition received on
September 9, 2020 appears to be untimely.
Accordingly,
IT IS ORDERED THAT:
(1) The parties are directed to show cause, within 30 days from the date of
filing of this order, why this petition should not be dismissed as premature.
(2) The briefing schedule is stayed.
FOR THE COURT
November 03, 2020
Date
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s31

A-9

APPENDIX B-l
Case^tpaB;. Document: $&■ vPape: 2 .' Fileti^TIPapSO:

iC 0;-j;

U.S. MERIT SYSTEMS PROTECTION BOARD
Western Regional Office
0*1 CUy 5«r*M,Su!»l3*<M
Oakland. CA S461*

Phant: fSIO} 273-7022, FtelSim 27S-7136-

Dale; May 8,2020
942nS«s?n PT :LP ME
Olympia, WA 98516
hcgossage@ginailcoiti
Case Docket Number; SB-0731-01-0261-L-3
Case Name; Henry Gossagc v, Office of Personnel Management

mmm.
Subject: Your request to reopen your suitability appeal, received in the
Western Regional Office on May 6, 2020, has been forwarded to the Office
of the Clerk of the. Board.
Forwarding Instructions; We forwarded the item identified in die ahove
subject to the office address shown below because it appears to be a matter
for their consideration. Please direct any future correspondence on this
subject to that address.
FORWARDED FOR. ACTION TO:
Merit Systems Protection Board
Office of the- Clerk of the Board
1615 M Street, NW
■Washington, DC 20419
Telephone No. <202) 653-7200
Fax No.(202)653-7130
V/TDB 1-800-877-8339

A-10

APPENDIX B-2
Merit Systems Protection Board Order
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
97 M.S.P.R. 366
HENRY E. GOSSAGE
Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT,
Agency.
DOCKET NUMBER
SE-0731-01-0261-1-2
DATE: September 27, 2004
Paul D. Doumit, Esquire, Olympia, Washington, for the appellant.
Kimya I. Jones, Esquire, Washington, D.C., for the agency.
BEFORE
Neil A. G. McPhie, Acting Chairman
Susanne T. Marshall, Member
Acting Chairman McPhie and Member Marshall both issue separate opinions.
ORDER
This case is before the Board by petition for review of the initial decision
which dismissed the refiled petition for appeal as moot. The two Board members
cannot agree on the disposition of the petition for review. Therefore, the initial
decision now becomes the final decision of the Merit Systems Protection Board in

A-ll

this appeal. Title 5 of the Code of Federal Regulations, section 1200.3(b)
(5 C.F.R. § 1200.3(b)). This decision shall not be considered as precedent by the
Board in any other case. 5 C.F.R. § 1200.3(d).
FOR THE BOARD:
Washington, D.C.
Bentley M. Roberts, Jr.
Clerk of the Board

A-12

SEPARATE OPINION OF NEIL A. G. MCPHIE
in

Henry E. Gossage v. Office of Personnel Management
MSPB Docket No. SE-0731-01-0261-I-2
T|11 write separately to express my views that: (1) The agency’s actions did
not render moot the appellant’s appeal of his suitability determination; and (2) the
Board may have jurisdiction over an alleged constructive suitability
determination, and that matter is not barred by collateral estoppel.
^|2 The facts of this case, which are not in dispute, are as follows: The
appellant pleaded guilty in 1992 to charges of rape and incest. After serving
approximately three years in prison, he was released on parole. Initial Appeal
File (IAF), Tab 10, Sub tab 2o. He applied for various positions with the Federal
government. Id,., Subtab 2u. The Office of Personnel Management (OPM) found
him unsuitable on the basis of an investigation showing his conviction and
falsification of employment documents and false statements in connection with
his application for an Industrial Hygienist position with the Occupational Safety
& Health Administration (OSHA). OPM debarred him from Federal employment
until July 21, 2000. Id., Subtab 2o. The appellant filed an appeal with the Board
of that decision. The administrative judge (AJ) affirmed OPM’s decision, and the
Board denied his petition for review. Gossage v. Office of Personnel
Management, MSPB Docket No. SE-0731-98-0139-I-1 (Initial Decision, June 30,
1998), review denied, 81 M.S.P.R. 651 (1998) (Table), review dismissed, 215
F.3d 1340 (Fed. Cir. 1999) (Table); IAF, Tab 10, Subtab 2o.
TJ3 When the period of debarment expired, the appellant, who is preference eligible,

A-13

again applied for an Industrial Hygienist position with OSHA. His name was at the
top of a certificate of 131igible, along with two other candidates, both of whom
withdrew their applications. OSHA requested authority from OPM to pass over his
application. IAF, Tab 10, Subtab 2o. OSHA also notified the appellant that it
intended to object to him on the basis of suitability for the position, specifically his
incarceration between 1992 and 1995. Id. On November 30, 2000, OPM issued a
written decision granting OSHA’s request to pass over the appellant. OPM informed
him that it would conduct an investigation as to his suitability. Id., Subtab 21. After
notifying the appellant that it proposed to find him unsuitable and affording him an
opportunity to respond, OPM issued a determination on May 16, 2001, rating the
appellant ineligible for the Industrial Hygienist position with OSHA, canceling any
eligibilities he had obtained from this application or other pending applications, and
debarring him until May 16, 2003. The determination was based on his criminal
conviction and resulting penalties and the falsification and false statement made in
connection with his applications in 1996 and 1997. Id., Subtabs 2a, 2b, 2d.
f 4 The appellant filed an appeal of OPM’s May 16, 2001 decision finding him
unsuitable for Federal employment and debarring him for two years. IAF, Tabs
1, 2. OPM filed a motion to dismiss the appeal as moot based on its withdrawal
of the May 16, 2001 negative suitability and debarment determination. Refiled
IAF, Tab 6. The appellant objected to the dismissal of his appeal. Id., Tabs 7, 9.
Without affording the appellant the hearing he requested, the AJ issued an initial
decision dismissing the appeal. He found that the appeal had been rendered moot

A-21

by final order. 81 M.S.P.R. 651 (1998) (Table). The United States Court of Appeals
for the Federal Circuit dismissed the appellant’s request for review of the Board’s
decision in that case. Gossage v. Office of Personnel Management, 215 F.3d 1349
(Fed. Cir. 1999) (Table).
17 As thoroughly explained in the administrative judge’s April 22, 2002 initial
decision, OPM’s decision to reinstate the appellant for consideration for federal
employment moots out the appeal. Gossage u. Office of Personnel Management,
MSPB Docket No. SE-0731-01-0261-I-2, Initial Decision at 2 (April 22, 2002). What
OPM did here was simply keep in place the appellant’s disqualification for the
OSHA positions for which he was previously found unsuitable - the Industrial
Hygienist and Safety & Occupational Specialist positions. Id. At 1-2. That was a
decision which the Board sustained in its final decision in the 1998 initial decision,
and which was not overturned by the Federal Circuit. The administrative judge
properly concluded that OPM’s decisions on the OSHA positions, which were fully
decided in a final 1998 Board decision, collaterally estopped the appellant from
raising those matters in the instant appeal. Collateral estoppel also precludes the
appellant from raising any discrimination or claims of violations of the Veterans
Employment Opportunities Act of 1998 (VEOA) that he raised or could have raised
in the 1998 appeal. Id. At 2-3; see Kroeger v. U.S. Postal Service, 865 F.2d 235, 239
(Fed. Cir. 1988) (collateral estoppel, or issue preclusion, is appropriate when (1) an
issue is identical to that involved in the prior action, (2) the issue was actually

A-22

litigated in the prior action, (3) the determination on the issue in the prior action
was necessary to the resulting judgment, and (4) the party precluded was fully
represented in the prior action).
H18 In the present appeal, the appellant has merely argued that he is “of Japanese
heritage” and has a “physical disability” of an unspecified nature. Initial Appeal
File, Tab 1. Such bare assertions are insufficient to raise a suitability determination
claim based on a final Board decision in a 1998 appeal. In fact, on petition for
review, the appellant acknowledges that OPM’s actions moot out the appeal except
for the matter of the OSHA positions which were filled many years ago. That case is
long over. Remand under these circumstances serves no purpose. The
administrative judge therefore correctly decided that the prior Board decision has
collateral estoppel effect with regard to the OSHA positions at issue.
If 19 The administrative judge’s decision here was neither arbitrary, capricious, nor
an abuse of discretion, and it comported with Board procedures. See United States
Postal Service v. Gregory, 534 U.S. 1, 6-7, 122 S. Ct. 431, 434 (2001). Absolutely no
reason exists to disturb it. The appellant’s petition for review should therefore
denied.
Date

Susanne T. Marshall
Member

A-23

APPENDIX B-3
Administrative Law Judge Decision
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
HENRY E. GOSSAGE, Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT, Agency.
DOCKET NUMBER: SE-0731-01-0261-I-2
DATE: April 22, 2002
Paul D. Doumit, Esquire, Olympia, Washington, for the appellant.
Kimya I. Jones, Esquire, Washington, D.C., for the agency.
BEFORE
James H. Freet, Administrative Judge
INITIAL DECISION
By appeal refiled October 12, 2001, the appellant has challenged a May 16,
2001, suitability decision by the Office of Personnel management (OPM). For the
reasons discussed below, the appeal is DISMISSED.
In its suitability decision, OPM found the appellant unsuitable for Federal
employment. It cancelled all eligibilities for employment which the appellant might
currently have and debarred him from competition for, or appointment to, any
position in the competitive Federal service for a period of 2 years. See OPM
File,Tab 21. In that decision, OPM also rated ineligible a particular application for
the position of Industrial Hygienist which the appellant has filed with the

A-24

Occupational Safety & Health Administration (OSHA). See Id. OSHA had requested
that the appellant be removed from consideration because his prior conviction and
incarceration for a felony would interfere with his ability represent OSHA as an
expert witness in court. Such court appearances are expected of OSHA’s compliance
officers. See OPM file, Tab2b (OPM Form86A). An agency may make such objection
to a particular candidate; OPM has authority to grant the objection by disqualifying
the candidate for particular positions. See 5 CFR § 332.406 (2001).
By Motion filed January 16, 2002, OPM stated that it was thereby
reinstating the appellant’s eligibility for competitive registers and withdrawing its
debarment of him from competition for, appointment to federal positions. OPM
stated, however, that its action did not change its decision to grant OSHA’s request
for permission to disqualify the appellant for the Industrial Hygienist position.
OPM moved that the appeal be dismissed as moot. The appellant has objected
to that motion. See Appellant’s Submission of January 24 and March 8, 2002. For
the reasons discussed below, OPM’s motion is GRANTED.
It is clear that OPM’s action moots the portions of its May 16, 2001
suitability decision which concerned the general cancellation of eligibilities for
employment and the general 2-year debarment. The appellant has received full
relief on these elements of his appeal.
The remaining question is the review ability of the OPM permission for OSHA
to disqualify the appellant for the industrial hygienist position. Such actions by
'

OPM are not necessarily appealable to the Board. Depending on the true nature of

A-25

the grounds for an agency’s request for disqualification, OPM’s approval may be
either a non-appealable non-selection decision or an appealable constructive
suitability decision. See Edwards v. Department of Justice, 87 M.S.P.R. 518, 522-23
(2001).
Even if it is assumed that OPM’s permission to OSHA to disqualify the
appellant is a constructive suitability determination, there is no issue for the Board
to resolve in this particular appeal. OSHA’s disqualification request was based on
the appellant’s felony conviction in 1992 and his resulting incarceration. The issue
of the appellant’s felony conviction and incarceration is barred from further
consideration by the board by the doctrine of collateral estoppel. Collateral estoppel,
or issue preclusion, is appropriate when (1) an issue is identical to that involved in
the prior action, (2) the issue was actually litigated in the prior action, (3) the
determination on the issue in the prior action was necessary to the resulting
judgment, and (4) the party precluded was fully represented in the prior action. See
Kroeger u. U.S. Postal Service, 865 F.2d 235, 239 (Fed. Cir. 1988); Jay v. Department
of Navy, 90 M.S.P.R. 635, 641 (2001). The same conviction and incarceration which
is the basis for OSHA’s request for permission to disqualify the appellant was an
element in a prior appeal to this Board concerning as earlier suitability decision by
OPM which covered the period ending July 21, 2000. See Gossage v. Office of
Personnel Management, MSPB Docket SE-0731-98-0139-I-1 (Initial Decision, June
30, 1998), petition for review denied, 81 M.S.P.R. 651 (1998) (Table), review

A-26

dismissed, 215 F.3d 1340 (Fed. Cir. 1999) (Table). The appellant was found to have
engaged in this criminal conduct. See Gossage, slip. At 3-4.
Since the charge concerning the appellant’s conviction and incarceration has
been established by collateral estoppel, no issue remains for the adjudication by the
Board. Having found the charge to be factually accurate, the board is precluded by
regulation from considering whether the charge warrants the suitability
determination made by OPM. See 5 C.F.R. § 731.501(a) (Jan. 29, 2001) (“If the
Board find that one or more charges are supported by preponderance of the
evidence, it shall affirm the [suitability] determination.”).
In summary, the issues of OPM’s general cancellation of eligibilities and
general debarment from future consideration are mooted by OPM’s reinstatement
decisions and the issue of OSHA’s request to disqualify the appellant is mooted by
collateral estoppel. Therefore, there is no matter for adjudication by the Board.
DECISION
The appeal is DISMISSED.!
FOR THE BOARD
James H. Freet
Administrative Judge

l

The appellant has raised the issue of attorney fees. The matter is premature.
See 5 CFR § 1201.203(d) (time of filing of attorney dee motions).

Additional material
from this filing is
available in the
Clerk's Office.

